CO KLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 L ega 1 B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-767

NATIONAL ASSOCIATION FOR GUN RIGHTS, INC.,
Petitioner,

Vv.
JEFF MANGAN, in His Official Capacity as the
Commissioner of Political Practices for the
State of Montana, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 31st day of December, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the AMICUS CURIAE BRIEF OF RANDY ELF IN SUPPORT OF
PETITIONER NATIONAL ASSOCIATION FOR GUN RIGHTS, INC. in the above entitled case. All parties required to be
served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
RANDY ELF
Counsel of Record
Post Office Box 525
Lakewood, N. Y. 14750
Telephone (202) 423-2122
ForEFilingOnly@gmail.com

Counsel for Amicus

Subscribed and sworn to before me this 3 Ist day of December, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

com wv E Clit Qudiow-h, Chl

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 39253
SERVICE LIST

David Alan Warrington
Counsel of Record
Kutak Rock LLP
1625 Eye Street
Suite 800
Washington, DC 20006
(202) 828-2437
david.warrington@kutakrock.com
Counsel for Petitioner

Matthew T. Cochenour

Jere Stuart Segrest

Assistant Attorneys General

Office of the Montana Attorney General
215 North Sanders Street

Helena, MT 59601

(406) 444-2026

mceochenour2@mt.gov
ssegrest@mt.gov

Counsel for Respondents
